CAPITAL CASE
EXECUTION SCHEDULED – JULY 15, 2020
No. 20IN THE

Supreme Court of the United States
WESLEY PURKEY,
Petitioner,
v.
WARDEN OF USP TERRE HAUTE, UNITED STATES OF AMERICA,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, Alan E. Schoenfeld, a member of
the bar of this Court, certify that the accompanying Petition for a Writ of Certiorari
contains 6,280 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
Executed on July 15, 2020.

/s/ Alan E. Schoenfeld
ALAN E. SCHOENFELD
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 230-8800
alan.schoenfeld@wilmerhale.com

